TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Individual Tax Returns Were Timely
                       Processed in 2006, but Opportunities
                          Exist to Improve Verification of
                              Certain Tax Deductions



                                        October 10, 2006

                              Reference Number: 2006-40-164




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              October 10, 2006


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Individual Tax Returns Were Timely Processed in
                              2006, but Opportunities Exist to Improve Verification of Certain Tax
                              Deductions (Audit # 200640016)

 This report presents the results of our review to evaluate whether the Internal Revenue Service
 (IRS) timely and accurately processed individual paper and electronic tax returns1 during the
 2006 Filing Season. The filing season is the period from January through mid-April when most
 individual income tax returns are filed. This audit focused on the implementation of new tax law
 changes identified in Appendix V that affected Tax Year 2005 tax returns. In addition, we
 reviewed the corrective actions taken for the conditions identified in our review of the
 2005 Filing Season2 to determine whether they were adequate.

 Impact on the Taxpayer
 Each year, legislated tax law changes create complex challenges for both the IRS and individual
 taxpayers. Overall, our review of the 2006 Filing Season found that most of these changes were
 implemented correctly with no significant delays in the processing of tax returns. The IRS had
 processed approximately 118.9 million individual income tax returns through May 26, 2006, and
 had timely issued refunds to applicable taxpayers within the processing time required.




 1
   U.S. Individual Income Tax Returns (Forms 1040 and 1040A) and Income Tax Returns for Single and Joint Filers
 With No Dependents (Form 1040EZ).
 2
   Individual Tax Returns Were Timely Processed in 2005; However, Implementation of Tax Law Changes Could Be
 Improved (Reference Number 2006-40-024, dated December 2005).
                                     Individual Tax Returns Were Timely
                                 Processed in 2006, but Opportunities Exist to
                                Improve Verification of Certain Tax Deductions



Synopsis
The IRS had a successful 2006 Filing Season. It                 The IRS had a successful 2006
completed processing returns on schedule and timely              Filing Season even though it
issued refunds within the required 45 calendar days of the       was an unusually difficult one
April 17, 2006, due date.3 The April 15 due date was on a      because of the many late tax law
Saturday this year, so the deadline was extended to             changes due to the Hurricanes.
April 17 for timely filed returns.4 Through May 26, 2006,
the IRS had processed approximately 118.9 million
individual income tax returns, including 70.9 million (59.6 percent) processed electronically.
The 2006 Filing Season was unusual due to the significant tax law changes to assist taxpayers
adversely affected by the devastation caused by Hurricanes Katrina, Rita, and Wilma that struck
the Gulf Coast States in August and October 2005. In addition, significant law changes were
included in provisions from the Working Families Tax Relief Act of 20045 and other legislation
that became effective for Tax Year 2005.
Overall, most key tax law changes for the 2006 Filing Season we reviewed were implemented
correctly. Additionally, one condition reported during the 2005 Filing Season review was no
longer a concern this year. Last year, we analyzed returns that were processed with an entry
exceeding $100,000 for the State sales tax or State income tax deduction and/or the amount of
nontaxable combat pay reported.6 In some instances, these entries were caused by taxpayers or
the IRS incorrectly entering the amounts, which created erroneous credits and understatements of
tax liabilities. In this year’s review, we reviewed questionable large-dollar amounts of the same
deductions and nontaxable combat pay along with other tax law changes and found they were
generally accurate and, when inaccuracies occurred, they were corrected during return
processing.
However, we also identified opportunities to improve the processing and accuracy of tax returns
containing the following tax provisions:
•   Taxpayers over the age of 70½ claimed improper Individual Retirement Arrangement (IRA)
    deductions.
•   Eligible taxpayers did not take full advantage of the sales tax deduction.



3
  Internal Revenue Code Section 6611 (e) (2002).
4
  Some taxpayers living in the Northeast had until April 18 to file their returns because of a Massachusetts holiday.
5
  Pub. L. No. 108-311, 118 Stat. 1166 (2004).
6
  We judgmentally selected $100,000 because we believed it provided a strong indicator of an unreasonable
deduction for the majority of returns.
                                                                                                                        2
                                Individual Tax Returns Were Timely
                            Processed in 2006, but Opportunities Exist to
                           Improve Verification of Certain Tax Deductions



•   Single taxpayers continued to claim a non-permissible “dual benefit” by taking both the
    tuition and fees deduction and the Education Credit.

Recommendations
The recommendations included in this report can assist the IRS in effectively administering tax
law changes. We recommended the Commissioner, Wage and Investment Division:
•   Revise the IRA worksheet in all tax instructions where this worksheet is used to clearly state
    that taxpayers over age 70½ cannot take the IRA deduction.
If the sales tax and tuition and fees deductions are extended to Tax Year 2006 and beyond, we
recommended the Commissioner, Wage and Investment Division:
•   Ensure the Sales Tax Calculator is available on the IRS Internet web site (IRS.gov) to assist
    individuals in calculating their deductions.
•   Create a new form to capture the required information for the tuition and fees deduction to
    ensure compliance with the tax legislation.

Response
IRS management did not agree with our first recommendation. However, the IRS is taking an
alternative corrective action and will revise the IRA worksheet for Tax Year 2006 to emphasize
the importance of reading the section of the instructions that addresses the issue.
IRS management agreed with both of our other recommendations. The IRS will develop a
web-based version of the Sales Tax Deduction Calculator in time for the filing of Tax Year 2006
tax returns. In addition, in anticipation of legislation to extend the deduction, the IRS began
developing a new form for the tuition and fees deduction. The IRS is monitoring the progress of
the legislation to ensure the form will be available timely. Management’s complete response to
the draft report is included as Appendix VI.

Office of Audit Comment
Although we are concerned taxpayers may continue to improperly claim this deduction, we are
pleased the IRS plans to revise the IRA worksheet to emphasize that taxpayers read the
instructions prior to completing the worksheet. We will monitor this issue during next year’s tax
return filing season to determine whether the corrective action taken is effective and reduces the
number of improper IRA deduction claims.



                                                                                                     3
                               Individual Tax Returns Were Timely
                           Processed in 2006, but Opportunities Exist to
                          Improve Verification of Certain Tax Deductions


Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment
Income Programs), at (202) 622-5916.




                                                                                       4
                                          Individual Tax Returns Were Timely
                                      Processed in 2006, but Opportunities Exist to
                                     Improve Verification of Certain Tax Deductions




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The 2006 Filing Season Was Completed Timely, and Most Returns
          Were Accurately Processed ..........................................................................Page 3
          Taxpayers Claimed Improper Individual Retirement
          Arrangement Deductions .............................................................................Page 5
                     Recommendation 1:........................................................Page 6

          Eligible Taxpayers Did Not Take Full Advantage of
          the Sales Tax Deduction ...............................................................................Page 7
                     Recommendation 2:........................................................Page 8

          Single Taxpayers Continued to Claim a Non-permissible “Dual Benefit”
          by Taking Both the Tuition and Fees Deduction and the Education
          Credit.............................................................................................................Page 9
                     Recommendation 3:........................................................Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 16
          Appendix III – Report Distribution List .......................................................Page 17
          Appendix IV – Outcome Measures...............................................................Page 18
          Appendix V – Overview of Tax Provisions and Other Tax Law
          Changes Examined During the Review ........................................................Page 20
          Appendix VI – Management’s Response to the Draft Report ......................Page 27
               Individual Tax Returns Were Timely
           Processed in 2006, but Opportunities Exist to
          Improve Verification of Certain Tax Deductions




                 Abbreviations

AGI           Adjusted Gross Income
EGTRRA        Economic Growth and Tax Relief Reconciliation Act of 2001
EITC          Earned Income Tax Credit
GO Zone       Gulf Opportunity Zone
IRA           Individual Retirement Arrangement
I.R.C.        Internal Revenue Code
IRS           Internal Revenue Service
KETRA         Katrina Emergency Tax Relief Act of 2005
MAGI          Modified Adjusted Gross Income
TIGTA         Treasury Inspector General for Tax Administration
TY            Tax Year
W&I           Wage and Investment
                                    Individual Tax Returns Were Timely
                                Processed in 2006, but Opportunities Exist to
                               Improve Verification of Certain Tax Deductions




                                             Background

The filing season1 is a critical program for the Internal
                                                                The IRS expected continued
Revenue Service (IRS) because it is during this time that       growth in electronically filed
most individuals file their income tax returns and contact       returns, which surpassed a
the IRS if they have questions about specific tax laws or      milestone last year when more
filing procedures. The IRS estimated that 135 million         than one-half of the returns were
                                2
individual income tax returns would be filed during                  filed electronically.
2006 and most of these would be filed during the 2006
Filing Season. It also expected continued growth in electronically filed returns, which surpassed
a milestone last year when more than one-half of the returns filed were filed electronically.
Through May 26, 2006, the IRS had processed approximately 118.9 million individual income
tax returns, including 70.9 million (59.6 percent) processed electronically. One of the challenges
the IRS encounters in processing these returns is the correct implementation of tax law changes.
Changes to the tax law are usually made each year and the changes have a major impact on how
the IRS conducts its activities, how many resources are required, and how quickly it can meet its
strategic goals. This filing season was an unusually difficult one for the IRS because there were
many late tax law changes in response to the Hurricanes that struck the United States. Disaster
relief provisions were enacted into law for taxpayers affected by Hurricanes Katrina, Rita, and
Wilma. The latest legislation, the Gulf Opportunity Zone (GO Zone) Act of 20053 was signed
into law on December 21, 2005. Late legislation gave the IRS very little time to revise the
necessary tax forms and computer programs before the start of the 2006 Filing Season.
During the 2006 Filing Season, the IRS processed individual income tax returns in six
Wage and Investment (W&I) Division Submission Processing sites4 located throughout the
country. All of the six sites processed paper-filed individual income tax returns, and all but the
Atlanta Submission Processing Site processed electronically filed individual income tax returns.
Both paper and electronic tax returns and related schedules are processed through the IRS
computer systems and recorded on each individual’s tax account at these sites. The IRS
computer systems are made up of a complex series of processing subsystems that are linked and
programmed nationally to check the validity and math accuracy of the return data provided. If

1
  The period from January through mid-April when most individual income tax returns are filed.
2
  Paper and electronic U.S. Individual Income Tax Returns (Forms 1040 and 1040A) and Income Tax Returns for
Single and Joint Filers With No Dependents (Form 1040EZ).
3
  Pub. L. No. 109-135, 119 Stat. 2577 (to be codified in scattered sections of 26 U.S.C. and at 19 U.S.C. § 4033).
4
  Submission Processing sites process paper and electronic submissions, correct errors, and forward data to the
Computing Centers for analysis and posting to taxpayer accounts. They are located in Andover, Massachusetts;
Atlanta, Georgia; Austin, Texas; Fresno, California; Kansas City, Missouri; and Philadelphia, Pennsylvania.
                                                                                                             Page 1
                                Individual Tax Returns Were Timely
                            Processed in 2006, but Opportunities Exist to
                           Improve Verification of Certain Tax Deductions



an error is found, the taxpayer is sent a notice that asks for additional information or explains any
change that is made to the amount of tax due or to the refund.
This review was performed at the W&I Division Headquarters in Atlanta, Georgia; the
Submission Processing offices in Lanham, Maryland, and Cincinnati, Ohio; and the
Austin, Texas, Submission Processing Site during the period January through June 2006. The
audit was conducted in accordance with Government Auditing Standards. Detailed information
on our audit objective, scope, and methodology is presented in Appendix I. Major contributors
to the report are listed in Appendix II.




                                                                                              Page 2
                                           Individual Tax Returns Were Timely
                                       Processed in 2006, but Opportunities Exist to
                                      Improve Verification of Certain Tax Deductions




                                             Results of Review

The 2006 Filing Season Was Completed Timely, and Most Returns
Were Accurately Processed
The IRS had a successful 2006 Filing Season. It completed processing returns on schedule and
timely issued refunds within the required 45 calendar days of the April 17, 2006, due date.5 The
April 15 due date was on a Saturday this year, so the deadline was extended to April 17 for
timely filed returns.6
Electronic returns increased over 6.4 percent over the same time last year. The largest increase
was seen in taxpayers filing online from home computers (19 percent),7 but a decrease of almost
23 percent was seen in the IRS Free File Program.8 This decrease could be attributed to limiting
participation in the Program by at least 30 percent of taxpayers in October 2005. Figure 1
compares electronic returns to paper returns filed during the 2006 Filing Season.
                    Figure 1: Volumes of Electronic and Paper Tax Returns Filed
                                   During the 2006 Filing Season
    Returns (Millions )
       10


        9


        8


        7


        6


        5


        4


        3


        2


        1


        -

             Jan    Jan   Feb   Feb   Feb   Feb   Mar   Mar   Mar     Mar   Mar   Apr   Apr   Apr   Apr   May   May   May    May
              20    27     03    10    17    24   03    10    17      24    31    07    14    21    28    05    12    19     26


                                       Electronically Filed Returns                           Paper Returns


Source: Treasury Inspector General for Tax Administration (TIGTA) electronic analysis of returns processed data.


5
  Internal Revenue Code Section (§) 6611 (e) (2002).
6
  Some taxpayers living in the Northeast had until April 18 to file their returns because of a Massachusetts holiday.
7
  Volumes for filing online from home computers include volumes from the IRS Free File Program.
8
  The Free File Program is an online tax preparation and electronic filing program that is offered through a
partnership agreement between the IRS and the Free File Alliance, LLC.
                                                                                                                            Page 3
                                  Individual Tax Returns Were Timely
                              Processed in 2006, but Opportunities Exist to
                             Improve Verification of Certain Tax Deductions



One condition reported during the 2005 Filing Season9 was no longer a concern this year. Last
year, we analyzed returns that were processed with an entry exceeding $100,000 for the State
sales tax or State income tax deduction and/or the amount of nontaxable combat pay reported.10
In some instances, these entries were caused by taxpayers or the IRS incorrectly entering the
amounts, which created erroneous credits and understatements of tax liabilities. In this year’s
review, we reviewed questionable large-dollar amounts of the same deductions and nontaxable
combat pay along with other tax law changes. We found they were generally accurate, and when
inaccuracies occurred they were corrected during return processing.

Implementation of key tax law changes
The 2006 Filing Season was unusual due to the significant tax law changes to assist taxpayers
adversely affected by the devastation caused by Hurricanes Katrina, Rita, and Wilma that struck
the Gulf Coast States in August and October 2005. The Katrina Emergency Tax Relief Act of
2005 (KETRA)11 was signed into law on September 23, 2005, and contained $3.3 billion in
estimated tax relief for Fiscal Year 2006. The GO Zone legislation followed in December 2005,
with an additional $3.9 billion in estimated tax relief for 2006. Taxpayers who were adversely
affected by the Hurricanes were able to elect to use their 2004 earned income to calculate their
Earned Income Tax Credit (EITC) and refundable Child
Tax Credit, double their Hope and Lifetime Learning              Hurricanes Katrina, Rita, and
Credits for students who attend an educational                   Wilma legislation provided an
institution in the GO Zone, and deduct personal casualty       estimated $7.2 billion in tax relief
or theft losses caused by the Hurricanes as a separate           to affected taxpayers in 2006.
deduction from all other casualty losses along with many
other tax benefits. Also, taxpayers who provided
housing for Hurricane Katrina displaced individuals could claim an additional exemption, and
cash contributions paid to qualified charitable organizations after August 27, 2005, were not
subject to any limitations.
In addition, significant law changes were included in provisions from the Working Families Tax
Relief Act of 200412 and other legislation that became effective for Tax Year (TY) 2005. One of
these changes provides a uniform definition of a qualifying child to be used in determining
various tax benefits. See Appendix V for an overview of the tax law provisions examined during
this review.



9
  Individual Tax Returns Were Timely Processed in 2005; However, Implementation of Tax Law Changes Could Be
Improved (Reference Number 2006-40-024, December 2005).
10
   We judgmentally selected $100,000 because we believed it provided a strong indicator of an unreasonable
deduction for the majority of returns.
11
   Pub. L. No. 109-73, 119 Stat. 2016 (to be codified in scattered sections of 26 U.S.C.).
12
   Pub. L. No. 108-311, 118 Stat. 1166 (2004).
                                                                                                    Page 4
                                    Individual Tax Returns Were Timely
                                Processed in 2006, but Opportunities Exist to
                               Improve Verification of Certain Tax Deductions



Overall, most key tax law changes for the 2006 Filing Season were implemented correctly.
These tax law changes involved:
•      Additional exemption for housing Hurricane Katrina displaced individuals.
•      Temporary suspension of limitations on charitable contributions and personal casualty losses.
•      Tax-favored withdrawals from retirement plans for qualified Hurricane distributions.
•      Special rule for determining earned income for taxpayers whose main home was in a disaster
       area.
•      Expansion of the Hope Scholarship and Lifetime Learning Credit for students in the
       GO Zone.
•      A qualifying child for the Child Tax Credit.
•      The expansion of the Individual Retirement Arrangement (IRA) deduction.
•      Increases in the EITC, the standard deduction, and the exemption amounts.
•      Increases in income limits for the student loan interest deduction.
However, we also identified opportunities to improve the processing and accuracy of tax returns
containing the following tax provisions:
•      Taxpayers over the age of 70½ claimed improper IRA deductions.
•      Eligible taxpayers did not take full advantage of the sales tax deduction.
•      Single taxpayers continued to claim a non-permissible “dual benefit” by taking both the
       tuition and fees deduction and the Education Credit.

Taxpayers Claimed Improper Individual Retirement Arrangement
Deductions
The IRA deduction was increased for TY 2005 to $4,000 and to $4,500 if a taxpayer is age 50 or
older. However, the Internal Revenue Code (I.R.C.)13 states that no deduction will be allowed as
a benefit to any individual who has attained the age of 70½ before the end of the taxable year for
which the contribution is made.
Our analysis showed the IRS correctly implemented the increases in the IRA deduction;
however, we identified 1,826 taxpayers over age 70½ that improperly claimed over $4 million in



13
     26 U.S.C. § 219 (2004).
                                                                                              Page 5
                                     Individual Tax Returns Were Timely
                                 Processed in 2006, but Opportunities Exist to
                                Improve Verification of Certain Tax Deductions



IRA deductions.14 Assuming all 1,826 taxpayers received an improper tax benefit from only the
IRA deduction, the estimated loss of revenue is $601,423.15 We realize this is a relatively small
volume of taxpayers; however, with the increasing aging of the population, this could become a
larger issue in the future.
The instructions for Forms 1040 and 1040A inform taxpayers to use the worksheet in the
instructions to calculate the amount of their IRA deductions but to read a list that followed before
preparing the worksheet. The first item on the list states, if they were age 70½ or older at the end
of 2005, they cannot deduct any contributions made to a traditional IRA for 2005. However, the
IRA worksheet instructs taxpayers to enter $4,000 or $4,500 if 50 or older at the end of 2005.
This wording is used three different times in the worksheet and implies there is no age limit for
this deduction. A taxpayer who has not read the instructions prior to preparing the worksheet
would be uninformed and could claim the deduction improperly.

Recommendation
Recommendation 1: The Commissioner, W&I Division, should revise the IRA worksheet in
all tax instructions where this worksheet is used to clearly state that taxpayers over age 70½
cannot take the IRA deduction.
         Management’s Response: IRS management did not agree with this
         recommendation. The instructions for Form 1040, Line 32, IRA Deduction, already
         instruct the taxpayer to read the list on page 31 before filling in the worksheet. The first
         item on the list explains the age 70½ or older restrictions. However, the IRS will revise
         the worksheet for TY 2006 to emphasize the importance of reading the list on page 31 of
         the instructions.
         Office of Audit Comment: Although we are concerned taxpayers may continue to
         improperly claim this deduction, we are pleased the IRS plans to revise the worksheet to
         emphasize that taxpayers read the instructions prior to completing the worksheet. We
         will monitor this issue during next year’s tax return filing season to determine whether
         the corrective action taken is effective and reduces the number of improper IRA
         deduction claims.




14
   These exceptions did take into account the age of the spouse if the taxpayers filed married filing jointly. If the age
of the spouse was under age 70½, the allowable IRA deduction was adjusted accordingly in our results.
15
   We used the tax rate of 15 percent to compute the estimated tax benefit (i.e., 15 percent times $4,009,485 of IRA
deductions equals a tax benefit of $601,423).
                                                                                                                Page 6
                                     Individual Tax Returns Were Timely
                                 Processed in 2006, but Opportunities Exist to
                                Improve Verification of Certain Tax Deductions



Eligible Taxpayers Did Not Take Full Advantage of the Sales Tax
Deduction
The American Jobs Creation Act of 200416 was enacted in
October 2004 and allows taxpayers who itemize deductions               This year, 14 percent of
                                                                   taxpayers living in a State with
the option of deducting either State and local sales taxes or     no income tax did not claim the
State and local income taxes from their Federal income             sales tax deduction. This was
taxes. This legislation allows this deduction in TYs 2004            up from 9 percent last year.
and 2005 and is most advantageous for taxpayers living in
the seven States that do not have a State income tax.17 During the 2005 Filing Season, taxpayers
could determine their deductions by using the tables provided in Optional State Sales Tax Tables
(Publication 600) or by saving actual receipts for taxes paid throughout the year. Also, any sales
tax paid on certain items such as motor vehicles could be added to the table amount. The
Optional State Sales Tax Tables and instructions were not included in the TY 2004 Form 1040
instructions because of the late passage of the legislation.
During the 2005 Filing Season, we reported that taxpayers residing in the seven States without a
State income tax were four times more likely to omit the sales tax deduction than taxpayers
living elsewhere. Of the 33.3 million tax returns processed through May 2005 with itemized
deductions, 5.1 million (15 percent) were filed by taxpayers residing in the 7 States without a
State income tax. Of these 5.1 million returns, 465,095 (9 percent) did not claim a sales tax
deduction.
This year, the IRS included the Optional State Sales Tax Tables and instructions within the
overall instructions for Itemized Deductions and Interest and Ordinary Dividends (Form 1040
Schedules A and B) and also provided the general State sales tax rate used to construct the tax
tables for each State. However, taxpayers residing in the seven States without a State income tax
were six times more likely to omit the sales tax deduction than taxpayers living elsewhere.
Through May 2006, 34.5 million returns had been processed with itemized deductions,
5.3 million (15 percent) of which were filed by taxpayers residing in the 7 States without a State
income tax. Of these 5.3 million returns, 735,415 (14 percent) did not claim a sales tax
deduction. Also, taxpayers in these seven States were more likely to claim the sales tax
deduction if they used a paid preparer. Conversely, taxpayers in these seven States that did not
use a paid preparer were more likely to omit the sales tax deduction. Figure 2 shows the
differences in the percentages between TYs 2004 and 2005.




16
     Pub. L. No. 108-357, 118 Stat. 1418 (2004).
17
     Alaska, Florida, Nevada, South Dakota, Texas, Washington, and Wyoming.
                                                                                            Page 7
                                    Individual Tax Returns Were Timely
                                Processed in 2006, but Opportunities Exist to
                               Improve Verification of Certain Tax Deductions



                     Figure 2: Percentages of Eligible Returns That
               Missed the Opportunity to Deduct State Income/Sales Taxes

                   Percentages of Eligible Returns That Missed the
                   Opportunity to Deduct State Income/Sales Taxes
      16%


      14%


      12%


      10%


       8%


       6%


       4%


       2%


       0%

                    Nationwide              States With Income Tax          States Without Income
                                                                                     Tax
                               Tax Year 2004                              Tax Year 2005

Source: TIGTA electronic analysis of returns processed with the State and local sales tax deduction and the State
and local income tax deduction for TYs 2004 and 2005.

One problem we identified was that the 2005 Sales Tax Calculator was not available on the IRS
Internet web site (IRS.gov). The TY 2005 instructions for Form 1040, Schedules A and B,
informed taxpayers they could use the Calculator instead of completing the worksheet included
in the instructions. However, the 2005 Sales Tax Calculator was not available during the 2006
Filing Season. As such, some taxpayers who prepared their own paper returns may have not
claimed the deduction because the 2005 Sales Tax Calculator was unavailable and the worksheet
in the instructions was very complex. Although the sales tax deduction was initially available for
TYs 2004 and 2005 only, Congress may extend this deduction to TY 2006 and beyond. If so, we
believe more taxpayers will benefit from this deduction with the use of the Sales Tax Calculator.

Recommendation
Recommendation 2: If the sales tax deduction is extended to TY 2006 and beyond, the
Commissioner, W&I Division, should ensure the Sales Tax Calculator is available on IRS.gov to
assist individuals in calculating their deductions.
        Management’s Response: IRS management agreed with this recommendation and
        will develop a web-based version of the Sales Tax Deduction Calculator in time for the
        filing of TY 2006 tax returns.




                                                                                                           Page 8
                                    Individual Tax Returns Were Timely
                                Processed in 2006, but Opportunities Exist to
                               Improve Verification of Certain Tax Deductions



Single Taxpayers Continued to Claim a Non-permissible “Dual
Benefit” by Taking Both the Tuition and Fees Deduction and the
Education Credit
The Economic Growth and Tax Relief Reconciliation Act of 200118 created a new “above-the
line” deduction for tuition and fees.19 For TY 2005, taxpayers were allowed to take a deduction
of up to $4,000 for qualified tuition and fees paid for the taxpayer, his or her spouse, or his or her
dependents. Taxpayers who claim an Education Credit are required to complete Education
Credits (Hope and Lifetime Learning Credits) (Form 8863) and identify the student, by name and
Social Security Number, for whom the Education Credit is being claimed. Taxpayers who claim
the tuition and fees deduction are not required to provide additional information other than what
is already on the return to identify the student for whom the deduction is being claimed.
However, taxpayers may not receive a dual benefit by taking both the tuition and fees deduction
and the Education Credit for the same student in the same year. If the Education Credit is
elected, the tuition and fees deduction is not allowed.
During this filing season, we identified 15,250 single taxpayers claiming no dependents that
claimed both the Education Credit and the tuition and fees deduction. We focused on single
taxpayers claiming no dependents because it is clear that both the tuition and fees deduction and
the Education Credit were claimed for the same individual, which is not allowable. Our audit
analysis showed these taxpayers claimed Education Credits of over $11 million and tuition and
fees deductions of nearly $34 million. Assuming all 15,250 taxpayers received an erroneous tax
benefit from only the tuition and fees deduction, the estimated loss of revenue is nearly
$5.1 million.20

This condition was reported in the 2003, 2004, and 2005 Filing Seasons
This is the fourth year in which we have identified and reported this issue. When this issue was
identified during the 2003 Filing Season, 21 the IRS included a cautionary statement on the
Form 8863 specifically to alert taxpayers not to claim both the tuition and fees deduction and the
Education Credit for the same student in the same year.




18
   Pub. L. No. 107-16, 115 Stat. 38 (2001).
19
   An “above-the-line” deduction refers to a deduction that is taken directly on Form 1040 rather than on the
Schedule A. Consequently, this type of deduction can be taken by taxpayers who do not itemize their deductions.
20
   We used the tax rate of 15 percent to compute the estimated tax benefit (i.e., 15 percent times $34 million of
tuition and fees deductions equals a tax benefit of $5.1 million).
21
   The 2003 Filing Season Was Completed Timely and Accurately, but Some New Tax Law Changes Were Not
Effectively Implemented (Reference Number 2004-40-003, dated October 2003).
                                                                                                            Page 9
                                   Individual Tax Returns Were Timely
                               Processed in 2006, but Opportunities Exist to
                              Improve Verification of Certain Tax Deductions



During the 2004 Filing Season, we recommended the IRS work on changing or developing
processes to identify and prevent erroneous deductions during initial tax return processing, such
as math error notices or unallowable items to disallow the dual benefits claimed by single
taxpayers with no dependents.22 The IRS agreed to establish a cross-functional task group to
conduct a study that would focus on the possibility of addressing errors during the initial
processing of returns.
In the 2005 Filing Season, we recommended the IRS revise
Form 8863 to combine and include applicable information for                    We have been reporting that
the tuition and fees deduction and the Education Credit to                       single taxpayers with no
ensure compliance and promote simplicity and fairness, as                     dependents are claiming both
noted by the Joint Committee on Taxation. The IRS responded                   the tuition and fees deduction
                                                                              and the Education Credit since
that, if legislation was enacted to extend the tuition and fees                 the deduction was created.
deduction beyond the TY 2005 expiration date, it would revise
Form 8863 to include the tuition and fees deduction on the Form.
While still significant, the number of single taxpayers with no dependents claiming both the
Education Credit and the tuition and fees deduction has decreased 18.8 percent from the previous
year (15,250 in the 2006 Filing Season compared to 18,776 in the 2005 Filing Season). Figure 3
provides a comparison of our results for this issue from the last four filing seasons.
           Figure 3: Single Taxpayers With No Dependents Claiming Both the
                  Education Credit and the Tuition and Fees Deduction

                        Tuition and Fees        Education Credit           Single
                       Deduction Claimed            Claimed            Taxpayers With              Average
     Filing Season          (millions)             (millions)          No Dependents            Deduction Taken
         2003                   77                      24                   42,058                 $1,831
         2004                   30                      11                   16,979                 $1,767
         2005                   39                      13                   18,776                 $2,077
         2006                   34                      11                   15,250                 $2,230
Source: TIGTA electronic analysis of returns processed data for the 2003-2006 Filing Seasons.

This issue may affect more than single taxpayers
The extent of the dual benefit problem may not be limited to single taxpayers with no
dependents. A total of 232,545 taxpayers that filed as other than single claimed both the tuition
and fees deduction and the Education Credit in the 2006 Filing Season, compared to


22
  The 2004 Filing Season Was Completed Timely and Accurately, but Some Tax Law Changes Have Not Been
Effectively Implemented (Reference Number 2005-40-016, dated December 2004).
                                                                                                        Page 10
                               Individual Tax Returns Were Timely
                           Processed in 2006, but Opportunities Exist to
                          Improve Verification of Certain Tax Deductions



241,862 taxpayers that filed as other than single in the 2005 Filing Season (a decrease of
3.8 percent). These 232,545 taxpayers claimed $656 million in tuition and fees deductions and
$245 million in Education Credits. However, because taxpayers claiming the tuition and fees
deduction are not required to provide additional information other than what is already on the
return to identify the student for whom the deduction is being claimed, neither we nor the IRS
can determine whether the taxpayers are claiming a 'dual benefit' for the same student.
A research project conducted by the W&I Division Compliance Program recognized the dual
benefit issue as a potential area of noncompliance. The analysis was limited to taxpayers filing
as single or head of household because there was insufficient information about returns using
other filing statuses and claiming dual benefits.
The tuition and fees deduction was scheduled to expire on December 31, 2005. However, there
is a chance that Congress will extend this provision to TY 2006 and beyond, in which case the
issues we identified would continue to exist. Our recommendation is contingent upon the
passage of legislation extending the tuition and fees deduction.

Recommendation
Recommendation 3: If Congress extends the tuition and fees deduction to TY 2006 and
beyond, the Commissioner, W&I Division, should create a new form for the tuition and fees
deduction to ensure compliance with the tax legislation. The form should require taxpayers to
specifically identify the student, by name and Social Security Number, who qualifies for the
tuition and fees deduction.
       Management’s Response: IRS management agreed with this recommendation. In
       anticipation of legislation to extend the deduction, the IRS began developing a new form
       for the tuition and fees deduction. The IRS is monitoring the progress of the legislation
       to ensure the form will be available timely.




                                                                                          Page 11
                                    Individual Tax Returns Were Timely
                                Processed in 2006, but Opportunities Exist to
                               Improve Verification of Certain Tax Deductions



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of the review was to evaluate whether the IRS timely and accurately
processed individual paper and electronic tax returns1 during the 2006 Filing Season.2 The audit
focused on the implementation of new tax law changes3 that affected TY 2005 tax returns. In
addition, we reviewed the corrective actions for the conditions identified in our review of the
2005 Filing Season4 to determine whether they were adequate. To accomplish our objective, we:
I.      Determined whether the IRS correctly implemented new tax legislation that could affect
        the processing of individual income tax returns during the 2006 Filing Season.
        A. Used 100 percent computer analysis of TY 2005 individual income tax returns
           processed nationally between January 1 and May 26, 2006,5 to identify returns
           affected by recent tax legislation. We used random sampling for some tests to ensure
           each return had an equal chance of being selected. We also used judgmental
           sampling if we needed to ensure the original returns could be quickly obtained to
           evaluate the accuracy of processing. To determine whether systemic controls at the
           Submission Processing sites6 assured processing accuracy for the KETRA and GO
           Zone legislation, we performed the following tests.
             1. Determined whether the new Exemption Amount for Taxpayers Housing
                Individuals Displaced by Hurricane Katrina (Form 8914) was processed
                accurately by reviewing a random sample of 30 of the 6,117 returns processed
                through February 3, 2006. We also analyzed 43,351 returns processed through
                March 17, 2006, to determine whether taxpayers were claiming a dependent as a
                displaced individual.


1
  U.S. Individual Income Tax Returns (Forms 1040 and 1040A) and Income Tax Returns for Single and Joint Filers
With No Dependents (Form 1040EZ).
2
  The period from January through mid-April when most individual income tax returns are filed.
3
  See Appendix V for an overview of the new tax law provisions examined during this review.
4
  Individual Tax Returns Were Timely Processed in 2005; However, Implementation of Tax Law Changes Could Be
Improved (Reference Number 2006-40-024, dated December 2005).
5
  To assess the reliability of computer-processed data, programmers in the TIGTA Office of Information
Technology validated the data that were extracted, and we verified the appropriate documentation. Judgmental
samples were selected and reviewed to ensure the amounts presented were supported by external sources. As
appropriate, data in the selected data records were compared to the physical tax returns to verify the amounts were
supported. Based on these tests, we determined the computer-processed data were reliable.
6
  Submission Processing sites process paper and electronic submissions, correct errors, and forward data to the
Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                          Page 12
                                    Individual Tax Returns Were Timely
                                Processed in 2006, but Opportunities Exist to
                               Improve Verification of Certain Tax Deductions



             2. Identified a population of 3,195,081 returns processed through April 28, 2006,
                that reported qualified contributions on Line 15b of the Itemized Deductions and
                Interest and Ordinary Dividends (Form 1040 Schedules A and B) that exceeded
                50 percent of the adjusted gross income (AGI).7 We selected a random sample of
                30 returns to ensure they were not subject to the limitation on itemized deductions
                or the 50 percent AGI limitation.
             3. Identified a population of 411,141 returns processed through April 28, 2006, with
                an amount on Line 17 of Casualties and Thefts (Form 4684). We selected a
                random sample of 30 returns to ensure amounts attributable to the Hurricane
                disaster areas on Form 4684 were not subject to any limitations.
             4. Identified a population of 2,703 returns processed through May 23, 2006, with
                Nondeductible IRAs (Form 8606). We selected a random sample of 29 returns to
                determine whether a Qualified Hurricane Retirement Plan Distributions and
                Repayments (Form 8915) was attached and the return was properly processed.
             5. Verified whether the accurate earned income was used by taxpayers electing to
                use their 2004 earned income to calculate the EITC and the refundable child
                credit by reviewing a judgmental sample of 40 of the 13,004 returns processed at
                the Austin, Texas, Submission Processing Site through February 3, 2006.
             6. Identified a population of 42,602 returns processed through March 31, 2006,
                claiming expanded Education Credits for students in the Gulf Opportunity Zone.
                We reviewed a judgmental sample of 30 paper returns processed in the
                Austin, Texas, Submission Processing Site to determine whether the Credits were
                accurately processed.
        B. Determined whether systemic controls at the Submission Processing sites assured
           processing accuracy for other new legislation.
             1. Determined whether the Child Tax Credit was accurately calculated when
                nondependent qualifying children were claimed by reviewing a random sample of
                30 of the 6,092 returns processed through February 3, 2006, with qualifying
                children claimed on Information on Qualifying Children Who Are Not
                Dependents (Form 8901).
             2. Identified 1,826 returns through May 26, 2006, on which taxpayers were over the
                age limits for receiving the IRA deduction.
             3. Determined whether the EITC was accurately processed by reviewing a random
                sample of 30 of the 2,326 returns processed through February 3, 2006, on which

7
 AGI is calculated after certain adjustments are made but before standard or itemized deductions and personal
exemptions are subtracted.
                                                                                                          Page 13
                               Individual Tax Returns Were Timely
                           Processed in 2006, but Opportunities Exist to
                          Improve Verification of Certain Tax Deductions



              the taxpayer claimed an EITC amount that exceeded the maximum credit based
              on filing status, number of qualifying children, and AGI limits.
          4. Verified whether the correct standard deduction and exemption amounts were
             used by reviewing a judgmental sample of 40 returns filed early and processed at
             the Austin Submission Processing Site.
       C. Determined whether the student loan interest deduction was properly phased out
          based on AGI limits by reviewing a judgmental sample of 30 returns processed
          through January 27, 2006, that claimed the student loan interest deduction.
II.    Determined whether the IRS monitoring systems indicated individual income tax returns
       were being processed timely and accurately.
       A. Monitored various Submission Processing site production reports, inventory reports,
          and return error inventories between January 27 and April 28, 2006, for key
          indicators for return processing and compared the statistics to those for the
          2005 Filing Season.
       B. Monitored the IRS Program Completion Date reports from May 2 through
          May 11, 2005, to determine whether the Submission Processing sites processed all
          returns timely.
       C. Computer analyzed filing patterns to evaluate whether processing inventories were
          adversely affected by taxpayers filing returns at the wrong Submission Processing
          site.
       D. Monitored weekly 2006 Filing Season W&I Division Production meetings between
          January 25 and May 24, 2006, and monitored the IRS Submission Processing office
          web site, the IRS web site (IRS.gov), and other applicable web sites from
          February 13 through May 5, 2006, to identify potentially significant issues.
III.   Determined whether the IRS corrected problems identified in the 2005 Filing Season.
       From returns processed by the Submission Processing sites between January 1 and
       May 26, 2006, we electronically identified TY 2005 returns that met specific criteria.
       A. Identified 735,415 returns processed through May 26, 2006, that did not claim the
          State sales tax deduction and resided in States without a State income tax. We then
          compared the returns to the analysis performed last year to determine whether more
          taxpayers benefited from this deduction because of corrective actions taken last year.




                                                                                         Page 14
                                   Individual Tax Returns Were Timely
                               Processed in 2006, but Opportunities Exist to
                              Improve Verification of Certain Tax Deductions



        B. Identified 31,200 returns processed through April 28, 2006, with an amount over
           $100,000 for the tax law changes selected for this review.8 We selected a random
           sample of 30 returns to determine whether the amounts appeared accurate.
        C. Identified 15,250 returns processed through May 26, 2006, filed by single taxpayers
           with no dependents who claimed both the Education Credit and the tuition and fees
           deduction.




8
 We judgmentally selected $100,000 because we believed it provided a strong indicator of an unreasonable
deduction for the majority of returns.




                                                                                                       Page 15
                             Individual Tax Returns Were Timely
                         Processed in 2006, but Opportunities Exist to
                        Improve Verification of Certain Tax Deductions



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Gary L. Young, Audit Manager
Tina M. Parmer, Lead Auditor
Sharon A. Buford, Senior Auditor
Steven D. Stephens, Senior Auditor
Steven E. Vandigriff, Senior Auditor
Lawrence N. White, Senior Auditor
Bonnie G. Shanks, Auditor
Joseph C. Butler, Information Technology Specialist
Judith P. Harrald, Information Technology Specialist




                                                                                   Page 16
                              Individual Tax Returns Were Timely
                          Processed in 2006, but Opportunities Exist to
                         Improve Verification of Certain Tax Deductions



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 17
                                     Individual Tax Returns Were Timely
                                 Processed in 2006, but Opportunities Exist to
                                Improve Verification of Certain Tax Deductions



                                                                                                    Appendix IV

                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.
For all outcomes listed in this appendix, we conducted computer analyses of TY 2005 individual
income tax returns.1 The returns were processed by the IRS Submission Processing sites2
between January 1 and May 26, 2006, and posted to the Individual Master File.3 We developed
specific criteria to identify returns affected by the new tax law changes covered in this review.
We used further computer analysis and auditor evaluation of return data to determine whether the
IRS accurately processed individual tax returns during the 2006 Filing Season.4

Type and Value of Outcome Measure:
•   Revenue Protection – Potential; 1,826 taxpayers improperly claimed the IRA deduction,
    resulting in an estimated loss of revenue of $601,423 (see page 5).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 1,826 taxpayers over age 70½ that improperly claimed
over $4 million in IRA deductions.5 Assuming all 1,826 taxpayers received an erroneous tax
benefit from only the IRA deduction, the estimated loss of revenue is $601,423.6 We realize this
is a very small volume of taxpayers; however, with the increasing aging of the population, this
could become a bigger issue in the future.




1
  Paper and electronic U.S. Individual Income Tax Returns (Forms 1040 and 1040A) and Income Tax Returns for
Single and Joint Filers With No Dependents (Form 1040EZ).
2
  Submission Processing sites process paper and electronic submissions, correct errors, and forward data to the
Computing Centers for analysis and posting to taxpayer accounts.
3
  The IRS database that maintains transactions or records of individual tax accounts.
4
  The period from January though mid-April when most individual income tax returns are filed.
5
  These exceptions did take into account the age of the spouse if the taxpayers filed married filing jointly. If the age
of the spouse was under age 70½, the allowable IRA deduction was adjusted accordingly in our results.
6
  We used the tax rate of 15 percent to compute the estimated tax benefit (i.e., 15 percent times $4,009,485 of IRA
deductions equals a tax benefit of $601,423).
                                                                                                               Page 18
                                     Individual Tax Returns Were Timely
                                 Processed in 2006, but Opportunities Exist to
                                Improve Verification of Certain Tax Deductions



Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 735,415 taxpayers affected (see page 7).

Methodology Used to Measure the Reported Benefit:
Our analysis identified that, through May 2006, 34.5 million returns had been processed with
itemized deductions, 5.3 million (15 percent) of which were filed by taxpayers residing in the
7 States without a State income tax.7 Of these 5.3 million returns, 735,415 (14 percent) did not
claim a sales tax deduction. Taxpayers in these States were six times more likely to overlook the
sales tax deduction than taxpayers living in the rest of the country.
We also found that taxpayers in these seven States were more likely to claim the sales tax
deduction if they used a paid preparer. Conversely, taxpayers in these seven States that did not
use a paid preparer were more likely to omit the sales tax deduction.

Type and Value of Outcome Measure:
•   Revenue Protection – Potential; 15,250 single taxpayers with no dependents claimed nearly
    $34 million in erroneous tuition and fees deductions, resulting in an estimated loss of revenue
    of nearly $5.1 million (see page 9).

Methodology Used to Measure the Reported Benefit:
We focused on single taxpayers claiming no dependents because it is clear that both the tuition
and fees and the Education Credit were claimed for the same individual. Our analysis identified
15,250 single taxpayers with no dependents who claimed Education Credits of over $11 million
and tuition and fees deductions of nearly $34 million. Assuming all 15,250 taxpayers received
an erroneous tax benefit from only the tuition and fees deduction, the estimated loss of revenue is
nearly $5.1 million.8 Because the tax law prohibits taxpayers from claiming both the deduction
and the Education Credit for the same individual in the same year, the tuition and fees deduction
is not allowable.




7
 Alaska, Florida, Nevada, South Dakota, Texas, Washington, and Wyoming.
8
 We used the tax rate of 15 percent to compute the estimated tax benefit (i.e., 15 percent times $34 million of tuition
and fees deductions equals a tax benefit of $5.1 million).
                                                                                                             Page 19
                                    Individual Tax Returns Were Timely
                                Processed in 2006, but Opportunities Exist to
                               Improve Verification of Certain Tax Deductions



                                                                                                 Appendix V

    Overview of Tax Law Provisions and Other Tax Law
          Changes Examined During the Review

The following information describes various tax law provisions and other changes that affected
TY 2005 individual income tax returns processed during the 2006 Filing Season.1 During our
review, we determined whether returns affected by the various provisions were processed
accurately, in accordance with the law.
Taxpayer Relief Act of 19972
This Act contained the following provision:
1)    Section 301 – Restoration of IRA Deduction for Certain Taxpayers. Provides for taxpayers
      covered by a retirement plan at work. For TY 2005, the deduction for contributions to a
      traditional IRA will be phased out over a $10,000 range in the taxpayer’s modified adjusted
      gross income (MAGI).3 For a married couple filing a joint return or a qualified widow(er),
      the deduction will begin to be phased out at a MAGI of $70,000. For single individuals or
      taxpayers filing as head of household, the deduction will begin to be phased out at a MAGI
      of $50,000.
Economic Growth and Tax Relief Reconciliation Act of 2001 (EGTRRA)4
The EGTRRA contained the following two provisions:
1) Section 431 – Deduction for Higher Education Expenses. Provides an above-the-line
   deduction for qualified tuition and related expenses. For TY 2005, the tuition and fees
   deduction is $4,000 if the taxpayer’s MAGI is not more than $65,000 ($130,000 for joint
   returns). If the taxpayer’s MAGI is greater than $65,000 ($130,000 for joint returns), but is
   not more than $80,000 ($160,000 for joint returns), the maximum tuition and fees deduction
   is $2,000. Married taxpayers filing separately are not allowed to take this deduction. This
   deduction cannot be taken for a student’s educational expenses if the taxpayer is claiming
   either the Hope or Lifetime Learning Credit for that same student.



1
  The period from January through mid-April when most individual income tax returns are filed.
2
  Pub. L. No. 105-34, 111 Stat. 788 (codified as amended in scattered sections of 5 U.S.C., 19 U.S.C., 26 U.S.C.,
29 U.S.C., 31 U.S.C., 42 U.S.C., and 46 U.S.C. app.).
3
  AGI is calculated after certain adjustments are made but before standard or itemized deductions and personal
exemptions are subtracted. MAGI is calculated without regard to certain deductions or exclusions.
4
  Pub. L. No. 107-16, 115 Stat. 38 (2001).
                                                                                                           Page 20
                                   Individual Tax Returns Were Timely
                               Processed in 2006, but Opportunities Exist to
                              Improve Verification of Certain Tax Deductions



2)    Section 601 – Modification of IRA Contribution Limits. Provides that, for TY 2005, the
      maximum contribution limit to a traditional IRA is increased to $4,000. The maximum
      catch-up contribution for individuals age 50 and over remains at $500 for TY 2005.
Working Families Tax Relief Act of 20045
This Act contained the following four provisions:6
1)    Section 101 – Repeal of Scheduled Reductions in Child Tax Credit, Marriage Penalty
      Relief, and 10-Percent Rate Bracket. Provides for a repeal of the scheduled reductions in
      the Child Tax Credit, the standard deduction and 15 percent tax rate bracket for joint
      returns (marriage penalty relief), and 10 percent tax rate bracket. The items will generally
      remain at their TY 2004 levels through TY 2010, after which the EGTRRA sunset will
      apply the law in effect for TY 2000. Through TY 2010, the Child Tax Credit will remain
      at $1,000, both the standard deduction and width of the 15 percent bracket for joint filers
      will continue to be twice that for single filers, and the 10 percent bracket will continue to
      be indexed for inflation after TY 2003.
2)    Section 201 – Uniform Definition of Child, Etc.. Provides a uniform definition of
      “qualifying child” in I.R.C. Section (§) 152(c)7 to be used in determining the tax benefits of
      the dependency exemption, Child Tax Credit, EITC, Credit for Child and Dependent Care
      Expenses, and Head of Household filing status. Each tax benefit has separate criteria for
      determining whether a taxpayer qualifies with respect to a particular child. Generally, a
      child is a qualifying child of a taxpayer if the child satisfies each of three tests: 1) the child
      has the same principal place of abode as the taxpayer for more than one-half of the taxable
      year (temporary absences due to illness, education, vacation, etc. are disregarded), 2) the
      child has a specified relationship to the taxpayer, and 3) the child has not yet attained a
      specified age. Except for the EITC, a child who provides over one-half of his or her own
      support may not be a qualifying child. The prior-law support and gross income tests for
      determining whether an individual is a dependent no longer apply if the child meets the
      requirements of the uniform definition of qualifying child.
3)    Section 204 – Modifications of Child Tax Credit. Modifies I.R.C. § 24(c)(1)8 to
      incorporate the new uniform definition of qualifying child provided in amended
      I.R.C. § 152(c). In addition, the provision eliminates the prior-law requirement that a foster
      child and certain other children be cared for as the taxpayer’s own child.



5
  Pub. L. No. 108-311, 118 Stat. 1166 (2004).
6
  Source: IRS Legislative Affairs Update 2004-6, Summary of Provisions in the Working Families Tax Relief Act of
2004, P.L. 108-311 (October 2004).
7
  26 U.S.C. § 152 (2004).
8
  26 U.S.C. § 24 (2004).
                                                                                                        Page 21
                               Individual Tax Returns Were Timely
                           Processed in 2006, but Opportunities Exist to
                          Improve Verification of Certain Tax Deductions



4)   Section 205 – Modifications of [the] EITC. Modifies I.R.C. § 32(c)(3)9 to define a
     qualifying child for purposes of the EITC by reference to the new uniform definition of
     qualifying child provided in I.R.C. § 152(c). The prior-law requirement that a foster child
     and certain other children be cared for as the taxpayer’s own child is eliminated. The
     tie-breaker rules applicable to the EITC remain unchanged and have been incorporated in
     the new uniform definition of a qualifying child in I.R.C. § 152. The provision retains the
     requirement that the taxpayer’s principal place of abode be in the United States.
American Jobs Creation Act of 200410
This Act contained the following provision:
1)   Section 501 – Deduction of State and local General Sales Taxes in Lieu of State and Local
     Income Taxes. Provides that taxpayers may elect to claim an itemized deduction for either
     State and local income taxes or State and local general sales taxes. Taxpayers can deduct
     either their actual sales taxes paid or the amount shown for their income bracket in tables
     provided by the IRS. Sales taxes paid on motor vehicles may be added to the table amount
     but only up to the amount paid at the general sales tax rate. Taxpayers will check a box on
     Itemized Deductions (Schedule A), to indicate whether their deduction is for sales or
     income taxes.
Katrina Emergency Tax Relief Act of 200511
This Act contained the following six provisions:12
1)   Section 101 – Tax-Favored Withdrawals From Retirement Plans for Relief Relating to
     Hurricane Katrina. Provides an exception to the 10 percent early withdrawal tax in the case
     of a qualified Hurricane Katrina distribution up to $100,000 from a qualified retirement
     plan, a Section 403(b) plan, a Section 457(b) Governmental deferred compensation plan, or
     an IRA. In addition, income attributable to a qualified Hurricane Katrina distribution may
     be included in income ratably over 3 years, and, to the extent the distribution is eligible for
     tax-free rollover and is recontributed within a 3-year period, the amount recontributed will
     not be included in gross income.
2)   Section 102 – Recontributions of Withdrawals for Home Purchases Cancelled Due to
     Hurricane Katrina. Provides that qualified distributions from a Section 401(k) plan, a
     Section 403(b) plan, or an IRA to purchase a home in the Hurricane Katrina disaster area
     may be recontributed to an eligible retirement plan. Any amounts recontributed are treated

9
  26 U.S.C. § 32 (2004).
10
   Pub. L. No. 108-357, 118 Stat. 1418 (2004).
11
   Pub. L. No. 109-73, 119 Stat. 2016 (to be codified in scattered sections of 26 U.S.C.).
12
   Source: TECHNICAL EXPLANATION OF H.R. 3768, THE “KATRINA EMERGENCY TAX RELIEF ACT OF
2005” AS PASSED BY THE HOUSE AND THE SENATE ON SEPTEMBER 21, 2005, Joint Committee on Taxation,
JCX-69-05 (September 2005).
                                                                                           Page 22
                                    Individual Tax Returns Were Timely
                                Processed in 2006, but Opportunities Exist to
                               Improve Verification of Certain Tax Deductions



         as direct rollovers. The qualified distribution must have been received after
         February 28, 2005, and before August 29, 2005, in order to purchase or construct a
         principal residence in the Hurricane Katrina disaster area, but the residence was not
         purchased or constructed due to Hurricane Katrina. To be treated as rollovers, the
         recontributions must be made between August 25, 2005, and February 28, 2006.
3)       Section 301 – Temporary Suspension of Limitations on Charitable Contributions. Provides
         that, in the case of an individual, the deduction for qualified contributions is allowed up to
         the amount by which the taxpayer’s contribution base exceeds the deduction for other
         charitable contributions. A taxpayer must elect this treatment for qualified contributions.
         Deductions elected to be treated under this Section are not subject to the overall limit on
         itemized deductions under Section 68. Contributions in excess of this amount are carried
         over to succeeding taxable years as contributions described in I.R.C. § 170(b)(1)(A),
         subject to the limitations of I.R.C. § 170(d)(1)(A)(i) and (ii).13 Qualified contributions are
         cash contributions made between August 28, 2005, and December 31, 2005, to a charitable
         organization described in I.R.C. § 170(b)(1)(A) (other than a supporting organization
         described in I.R.C. § 509(a)(3) or donor-advised funds).14
4)       Section 302 – Additional Exemption for Housing Hurricane Katrina Displaced Individuals.
         Provides an additional exemption of $500 for each Hurricane Katrina displaced individual.
         The maximum additional exemption amount is $2,000 for married taxpayers filing jointly,
         $1,000 for married taxpayers filing separately, and $2,000 for all other taxpayers. The
         taxpayer may claim the exemption only one time for each displaced individual for all
         taxable years. A Hurricane Katrina displaced individual is a person (1) whose principal
         place of abode on August 28, 2005, was in the Hurricane Katrina disaster area; (2) who is
         displaced from such abode; (3) whose abode, if located within the disaster area but outside
         the core disaster area, must be damaged by Hurricane Katrina, or who was evacuated from
         the abode because of Hurricane Katrina; and (4) who is provided housing free of charge in
         the taxpayer’s principal residence for a period of 60 consecutive days that ends in the
         taxable year in which the exemption is claimed. The displaced individual cannot be the
         taxpayer’s spouse or dependent. The taxpayer cannot receive any compensation from any
         source for providing housing to the displaced individual. The taxpayer must provide the
         Taxpayer Identification Number of the displaced individual.
5)       Section 402 – Suspension of Certain Limitations on Personal Casualty Losses. Provides
         that casualty or theft losses of personal-use property that are attributable to Hurricane
         Katrina need not exceed the $100-per-casualty or -theft limitation. In addition, casualty or
         theft losses of personal-use property that are attributable to Hurricane Katrina are



13
     26 U.S.C. § 170 (2004).
14
     26 U.S.C. § 509 (2004).
                                                                                                 Page 23
                               Individual Tax Returns Were Timely
                           Processed in 2006, but Opportunities Exist to
                          Improve Verification of Certain Tax Deductions



     disregarded for purposes of applying the 10 percent threshold to other personal casualty or
     theft losses.
6)   Section 406 – Special Look-Back Rule for Determining the EITC and the Refundable Child
     Credit. Permits a qualified individual to elect to calculate both the EITC and the
     refundable Additional Child Tax Credit for the taxable year that includes August 25, 2005,
     using the earned income from the prior taxable year. This election can be made only if the
     qualified individual’s earned income for the taxable year that includes August 25, 2005, is
     less than earned income for the preceding taxable year.
Gulf Opportunity Zone Act of 200515
This Act contained the following two provisions:16
1)   Section 102 – Expansion of Hope Scholarship and Lifetime Learning Credit for Students in
     the Gulf Opportunity Zone. Created new I.R.C. § 1400017 that expands the Hope and
     Lifetime Learning Credits for students attending an eligible education institution located in
     the Gulf Opportunity Zone. The Hope Credit is increased to 100 percent of the first $2,000
     in qualified tuition and related expenses and 50 percent of the next $2,000 of qualified
     tuition and related expenses, for a maximum credit of $3,000 per student. The Lifetime
     Learning Credit rate is increased from 20 percent to 40 percent of up to $10,000 of
     qualified tuition and related expenses per taxpayer return. The definition of qualified
     expenses is expanded to mean qualified higher education expenses as defined under the
     rules relating to qualified tuition programs, including certain room and board expenses for
     at least half-time students. This provision applies to taxable years beginning in 2005 or
     2006.
2)   Section 201 – Extension of Certain Emergency Tax Relief for Hurricane Katrina to
     Hurricanes Rita and Wilma. This provision created the following new I.R.C. Sections:
     •   I.R.C. § 1400Q(a)18 – Tax-Favored Withdrawals From Retirement Plans. Codifies
         Section 101 of the KETRA and expands the provision to include qualified distributions
         relating to Hurricanes Rita and Wilma. For purposes of Hurricane Rita, a qualified
         distribution includes a distribution from an eligible retirement plan made on or after
         September 23, 2005, and before January 1, 2007, to an individual whose principal place
         of abode on September 23, 2005, is located in the Hurricane Rita disaster area and who
         has sustained an economic loss by reason of Hurricane Rita. For purposes of Hurricane


15
   Pub. L. No. 109-135, 119 Stat. 2577 (to be codified in scattered sections of 26 U.S.C.).
16
   Source: TECHNICAL EXPLANATION OF H.R. 3768, THE “KATRINA EMERGENCY TAX RELIEF ACT OF
2005” AS PASSED BY THE HOUSE AND THE SENATE ON SEPTEMBER 21, 2005, Joint Committee on Taxation,
JCX-69-05 (September 2005).
17
   26 U.S.C. § 1400O (2005).
18
   26 U.S.C. § 1400Q (2005).
                                                                                          Page 24
                                      Individual Tax Returns Were Timely
                                  Processed in 2006, but Opportunities Exist to
                                 Improve Verification of Certain Tax Deductions



             Wilma, a qualified distribution includes a distribution from an eligible retirement plan
             made on or after October 23, 2005, and before January 1, 2007, to an individual whose
             principal place of abode on October 23, 2005, is located in the Hurricane Wilma
             disaster area and who has sustained an economic loss by reason of Hurricane Wilma.
         •   I.R.C. § 1400Q(b) – Recontributions of Withdrawals for Home Purchases. Codifies
             Section 102 of the KETRA and expands the provision to allow recontribution of certain
             distributions from a Section 401(k) plan, a Section 403(b) annuity, or an IRA to
             qualified Hurricane Rita distributions and to qualified Hurricane Wilma distributions.
         •   I.R.C. § 1400S(b)19 – Suspension of Certain Limitations on Personal Casualty Losses.
             Codifies Section 402 of the KETRA and expands the provision to include losses that
             arise on or after September 23, 2005, in the Hurricane Rita disaster area and are
             attributable to Hurricane Rita and losses that arise on or after October 23, 2005, in the
             Hurricane Wilma disaster area and are attributable to Hurricane Wilma.
         •   Section 1400S(d) – Special Rule for Determining Earned Income Credit. Codifies
             Section 406 of the KETRA and expands the rule governing the Hurricane Katrina
             elections to permit certain qualified individuals affected by Hurricanes Rita and Wilma
             to make similar elections. In the case of Hurricane Rita, certain qualified individuals
             may elect to calculate both the EITC and the refundable Additional Child Tax Credit
             for the taxable year that includes September 23, 2005, using the earned income from
             the prior taxable year. In the case of Hurricane Wilma, certain qualified individuals
             may elect to calculate both the EITC and the refundable Additional Child Tax Credit
             for the taxable year that includes October 23, 2005, using the earned income from the
             prior taxable year.
Cost-of-Living (Inflation) Adjustments for TY 2005
Revenue Procedure 2004-7120 contained the following seven inflation-adjusted items:
1)       Child Tax Credit. For TY 2005, the value used in I.R.C. § 24(d)(1)(B)(i) in determining
         the amount of the Additional Child Tax Credit that may be refundable is $11,000.
2)       Hope and Lifetime Learning Credits. For TY 2005, the $1,500 maximum Hope Credit for
         each eligible student and the $2,000 maximum Lifetime Learning Credit for each return
         begin to phase out when the taxpayer’s MAGI reaches $43,000 ($87,000 for joint returns)
         and are completely phased out when the MAGI reaches $53,000 ($107,000 for joint
         returns). If a student is eligible for both Credits in TY 2005, the taxpayer can claim either
         Credit but not both.



19
     26 U.S.C. § 1400S (2005).
20
     Rev. Proc. 2004-71, 2004-50 I.R.B. 970.
                                                                                                Page 25
                                   Individual Tax Returns Were Timely
                               Processed in 2006, but Opportunities Exist to
                              Improve Verification of Certain Tax Deductions



3)    Earned Income Tax Credit. For TY 2005, the earned income amounts,21 maximum
      amounts of the EITC, and threshold amounts for phaseout of the Credit under
      I.R.C. § 32(b) were increased. For example, taxpayers filing as Single, Surviving Spouse,
      or Head of Household with earned income of less than $35,263 ($37,263 for joint returns)
      and 2 or more qualifying children can claim up to a maximum credit of $4,400. However,
      the amount of credit that can be claimed begins to phase out when the taxpayer’s AGI (or
      earned income, if greater) reaches $14,370 ($16,370 for joint returns) and is completely
      phased out when the taxpayer’s AGI (or earned income, if greater) reaches $35, 263
      ($37,263 for joint returns). Also, the investment income amount under I.R.C. § 32(i)(1)
      was increased to $2,700.
4)    Standard Deduction. For TY 2005, the standard deduction amounts under
      I.R.C. § 63(c)(2)22 were increased to $5,000 for Single or Married Filing Separately filing
      statuses, $7,300 for Head of Household filing status, and $10,000 for Married Filing Jointly
      or Surviving Spouse filing statuses. The standard deduction amount under
      I.R.C. § 63(c)(5) for an individual who may be claimed as a dependent by another taxpayer
      may not exceed the greater of $800 or the sum of $250 and the individual’s earned income.
      The additional standard deduction amounts under I.R.C. § 63(f) for the aged and for the
      blind are $1,000 each or $1,250 each if the individual is also unmarried and not a surviving
      spouse.
5)    Income from United States Savings Bonds for Taxpayers Who Pay Qualified Higher
      Education Expenses. For TY 2005, the exclusion under I.R.C. § 13523 (regarding income
      from United States savings bonds for taxpayers who pay qualified higher education
      expenses) begins to phase out when the taxpayer’s MAGI reaches $61,200 ($91,850 for
      joint returns) and is completely phased out when the MAGI exceeds $76,200 ($121,850 for
      joint returns).
6)    Personal Exemption. For TY 2005, the personal exemption under I.R.C. § 151(d)24 is
      $3,200.
7)    Interest on Education Loans. For TY 2005, the $2,500 maximum deduction for interest
      paid on qualified education loans under I.R.C. § 22125 begins to phase out when the
      taxpayer’s MAGI reaches $50,000 ($105,000 for joint returns) and is completely phased
      out when the MAGI exceeds $65,000 ($135,000 for joint returns).


21
   The earned income amount is the amount of earned income at or above which the maximum amount of the EITC
is allowed. Earned income generally includes wages, salaries, tips, and other employee compensation, plus net
earnings from self-employment.
22
   26 U.S.C. § 63 (2004).
23
   26 U.S.C. § 135 (2004).
24
   26 U.S.C. § 151 (2004).
25
   26 U.S.C. § 221 (2004).
                                                                                                     Page 26
              Individual Tax Returns Were Timely
          Processed in 2006, but Opportunities Exist to
         Improve Verification of Certain Tax Deductions



                                                   Appendix VI

Management’s Response to the Draft Report




                                                          Page 27
     Individual Tax Returns Were Timely
 Processed in 2006, but Opportunities Exist to
Improve Verification of Certain Tax Deductions




                                                 Page 28
     Individual Tax Returns Were Timely
 Processed in 2006, but Opportunities Exist to
Improve Verification of Certain Tax Deductions




                                                 Page 29
     Individual Tax Returns Were Timely
 Processed in 2006, but Opportunities Exist to
Improve Verification of Certain Tax Deductions




                                                 Page 30
